No. 20-380
IN THE

~upreme QCourt of tbe Wniteb ~tatesID ENIX PHARMACEUTICALS LLC AND UNIVERSITA
DEGLI STUDI DI CAGLIARI,

Petitioners,
V.

GILEAD SCIENCES, INC.,

Respondent.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Reply in Support of Certiorari in Ide nix Pharmaceuticals LLC

and UniversitaDegli Studi di Cagliari v. Gilead Sciences, Inc., No. 20-380, was served
via electronic mail on all parties required:
E. Joshua Rosenkranz
ORRICK, HERRINGTON & SUTCLIFFE LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5000
jrosenkranz@orrick.com

Counsel for Respondent

I declare under penalty of perjury that the foregoing is true and correct.

Date: December 30, 2020

